        BULK FUEL STORAGE AND DELIVERY SYSTEMS
         INFRASTRUCTURE MILITARY CONSTRUCTION
                REQUIREMENTS FOR JAPAN


Report No. D-2001-003                October 13, 2000



             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2885

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

DLA                   Defense Logistics Agency
JFIP                  Japanese Facilities Improvement Program
MILCON                Military Construction
MR&E                  Maintenance, Repair, Environmental
MCAS                  Marine Corps Air Station
                        Office of the Inspector General, DoD
Report No. D-2001-003                                                    October 13, 2000
   Project No. D1999CG-0088.004

          Bulk Fuel Storage and Delivery Systems Infrastructure
             Military Construction Requirements for Japan

                                  Executive Summary
Introduction. This report is one in a series that addresses the accuracy and reliability of
maintenance, repair, and environmental and construction requirements for bulk fuel
storage and delivery systems infrastructure. The Defense Logistics Agency, Defense
Energy Support Center provides fuel to DoD customers and is responsible for budgeting
and funding military construction and maintenance and repair projects, including
environmental projects, at all DoD fuel terminals worldwide.

Objectives. Our overall objective was to evaluate the accuracy and reliability of DoD
documentation regarding maintenance, repair, and environmental and construction
requirements for bulk fuel storage and delivery systems infrastructure. Specifically, this
audit evaluated requirements for bulk fuel storage facilities at three locations in Japan.
We also evaluated the management control program as it relates to the bulk fuel storage
military construction requirements validation process.

Results. The requirement for four proposed military construction projects for the
construction of seven bulk fuel storage tanks in Japan were valid, but the Service
Components and the United States Forces Japan could not demonstrate that they had
evaluated or pursued the potential for using the host nation relocation program. Those
projects are no longer viable candidates for host nation relocation funding because of the
lengthy approval process. The supporting economic analysis for any future military
construction proposals need to document the full consideration and pursuit of funding
alternatives, especially host nation support. See Appendix A for details on the
management control program.

Summary of Recommendations. We recommend that the Commander in Chief, U.S.
Pacific Command; the Commander, United States Forces Japan; and the applicable
Service Components establish policy to require that the planners of future military
construction projects in Japan consider all funding options and appropriately document
the process in the project files.

Management Comments. The Commander in Chief, U.S. Pacific Command provided
comments and stated that he concurs with the finding. The U.S. Pacific Command
provided additional comments indicating that their instruction is being revised to require
formal documentation of required attempts to obtain host-nation support. A discussion of
the management comments is in the Finding section of the report, and the complete text
of the formal reply is in the Management Comments section.

Audit Response. We consider the management position as fully responsive and no
additional comments are required.
Table of Contents

Executive Summary                       i


Introduction
     Background                        1
     Objectives                        2

Finding
     Bulk Fuel Storage Requirements    3

Appendixes
     A. Audit Process
          Scope                        7
          Methodology                  7
          Management Control Program   8
          Prior Coverage               8
     B. Report Distribution            9

Management Comments
     U.S. Pacific Command              11
Introduction
    This report is one in a series being issued by the Inspector General, DoD,
    addressing DoD maintenance, repair, and environmental (MR&E) and military
    construction (MILCON) requirements for bulk fuel storage and delivery systems
    infrastructure (storage tanks, pipelines, dispensing facilities, hydrants, etc.). The
    Defense Logistics Agency (DLA), Defense Energy Support Center, is responsible
    for budgeting and funding MILCON and MR&E projects for DoD bulk fuel
    terminals worldwide.



Background
    In 1991, Program Budget Decision 735 authorized the transfer of MILCON
    funding authority to DLA for fuel-related bulk fuel infrastructure on military
    installations. Actual transfer of the funding responsibilities, however, has been
    managed in phases. Military installations are still responsible for funding retail
    fuel facilities for ground products (vehicles, motor pools, etc.). The period from
    1993 through 1996 was characterized by very low fuel-related MILCON
    expenditures. During this period when the Services would have historically
    expended an average of $66 million per year, DLA averaged only $17 million.
    Low levels of funding over an extended period precipitated infrastructure
    deterioration to the point where environmental issues became a concern.
    Additionally, the United States has changed from a forward-deployed force to one
    based largely in the continental United States. Therefore, an enhanced en route
    refueling infrastructure to support deployment of U.S. Forces worldwide is
    needed to meet timeline requirements of a two major theatre war strategy.
    Consequently, there is a growing demand for MR&E and MILCON projects
    supporting fuel infrastructure.

    In 1997, the Office of the Deputy Under Secretary of Defense (Logistics)
    completed a study on DoD fuels MILCON funding. The study identified
    114 MILCON projects totaling $1.5 billion in fuel-related MILCON requirements
    to meet environmental, operational, and strategic planning objectives for the
    proposed Future Years Defense Program (FYs 1999 through 2003). During FY
    1998 budget considerations, the transfer of MILCON responsibility to DLA
    created a major funding issue since the Defense budget did not provide increased
    funding for DLA. For FY 2000, DLA funded and approved $101.2 million for 5
    projects. For the FY 2001 President’s Budget to Congress, DLA programmed 14
    fuel projects with an estimated cost of $168 million.

    The Defense Energy Support Center is responsible for DoD fuel inventory
    management, including fuel procurement and sales, and environmental oversight.
    Fuel-related infrastructure requirements may be funded by DLA from two
    different funding sources. MR&E projects are funded through the

    Defense Working Capital Fund – a revolving fund that is continually replenished
    by a surcharge added by DLA to the sale price of fuel. Renovation and major

                                          1
     construction projects are funded from the DLA allocation of MILCON
     appropriations.



Objectives
     Our overall objective was to evaluate the accuracy and reliability of DoD
     documentation for MR&E and MILCON requirements for bulk fuel storage and
     delivery systems infrastructure. Specifically, for this report, we addressed
     requirements for bulk fuel storage facilities at three locations in Japan that
     included four proposed MILCON projects for the construction of seven bulk fuel
     storage tanks. We also reviewed the management control program as it relates to
     the overall objective. See Appendix A for a discussion of the audit scope and
     methodology and a discussion of the management control program.




                                        2
            Bulk Fuel Storage Requirements
            The requirement for four proposed MILCON projects for seven bulk fuel
            storage tanks in Japan were valid. However, the Service Components
            proposing the projects and the United States Forces Japan could not
            demonstrate that all funding alternatives to satisfy infrastructure
            requirements in Japan had been considered, because there was no explicit
            requirement for them to do so. Therefore, DoD lacked assurance that
            those requirements were satisfied in the most economical manner.


Policy Guidance
     DoD Directive 4140.25–M, volume I, chapter 1, “DoD Bulk Petroleum
     Management Policy,” states that DoD bulk petroleum programs shall support the
     DoD peacetime and wartime missions and permit successful deployment and
     employment of Forces at minimum cost. The guidance also applies the following
     objectives to bulk petroleum integrated material management.

            •   Purchase, store, and distribute bulk petroleum products in an
                economical and efficient manner.

            •   Maintain essential and properly positioned inventories and storage
                facilities in support of peacetime and wartime requirements.

            •   Provide efficient financial management and effective use of resources
                for the DoD bulk petroleum logistic system and eliminate duplication
                of effort.

     DoD Directive 4140.25-M, volume II, chapter 8, “Management of Storage and
     Distribution Facilities,” April 20, 1999, states that planning for wartime
     petroleum requirements shall rely on host-nation support when feasible. The
     directive further states that for overseas terminals, it is mandatory that MILCON
     projects be supported by a statement of the proponent’s attempt to secure host
     nation support for the project, clearly demonstrating that such support is
     unavailable, impractical, unfeasible, or uneconomical before using MILCON
     funds.


United States Forces Japan
     The mission of the United States Forces Japan is to support the U.S. forward
     presence, promote regional stability, and ensure bilateral defense cooperation with
     the government of Japan. The petroleum management responsibilities of the
     United States Forces Japan include the geographic management of, as well as the
     coordination of the receipt, storage, and distribution of, petroleum products. The
     United States Forces Japan also reviews, prioritizes, and coordinates the local
     geographic requirements for MILCON and MR&E related to the petroleum
     infrastructure.

                                          3
Host Nation Support
    Japan provides host nation support to share the U.S. Government’s burden of
    stationing U.S. Forces in Japan. Direct host nation support is approximately
    9 percent of the Japan Defense Agency budget. Planning, programming, and
    budgeting for host nation funding is similar to the MILCON process. As with
    MILCON, the process takes more than five years from the time that a proposed
    construction project is submitted for consideration until the actual funding and
    award of a construction contract.



Japanese Facilities Improvement Program (JFIP)
    JFIP is a government of Japan initiative, which started in 1979 to ease the
    financial burden of stationing U.S. Forces in Japan. The program reduces U.S.
    Government cost to improve the quality of life and military posture.
    Approximately 21 percent of the government of Japan host nation support
    provided to the U.S. Forces in Japan is allocated to JFIP.

    The program has funded more than $14.5 billion in new facilities. However, use
    of JFIP funds for bulk fuel storage and delivery system infrastructure is limited
    by many factors. Funding is voluntary and is not protected by any formal
    agreements (for example, Status of Forces Agreement, or the Small Measures
    Agreement). The U.S. Government is responsible for maintaining the facilities.
    Most importantly, JFIP funds may not be used to construct facilities viewed by
    the government of Japan as offensive or warfighting in nature. Thus, bulk fuel
    storage and delivery system infrastructure projects perceived to increase
    warfighting capacity may not be funded through JFIP.



Japanese Relocation Funding Process
    The Japanese relocation funding process is another source of host nation support,
    separate and distinct from JFIP. Host nation funded relocation projects are quid
    pro quo, that is, the giving or receiving of something in exchange for something
    else. The relocation program is also a government of Japan initiative and funding
    is voluntary and is not protected by any formal agreements or completion
    guarantees.

    The relocation alternative should be considered and pursued in conjunction with
    the use of new MILCON funding for proposed construction projects, given the
    significant dollar amounts associated with MILCON funding. The relocation
    process requires municipal approvals at both the losing and gaining locations.
    Those approvals can be highly speculative. Therefore, an alternative funding
    source, such as MILCON, also needs to be pursued so that if the host nation
    relocation alternative does not materialize, then the proposed construction project
    can be acquired in a timely manner using alternative funding.

                                         4
Bulk Fuel Storage and Delivery Systems Infrastructure
MILCON Projects in Japan
     The Table below lists DLA-approved bulk fuel storage and delivery systems
     infrastructure MILCON projects proposed for FYs 2001 through 2003 in Japan.

                        DLA Approved MILCON Projects in Japan
                                    ($ in millions)

          FY         Location                    Project                  Amount
          01      Misawa AFB        Construct 2, 100 mbbl* tanks           $26.4
          01      Iwakuni MCAS      Construct 2, 100 mbbl* tanks            22.4
          02      Yokota AFB        Construct 1, 100 mbbl* tank             14.0
          03      Yokota AFB        Construct 2, 100 mbbl* tanks            25.0
               Total                                                       $87.8
      *
      mbbl = 1,000 barrels = 42,000 gallons

     We reviewed the DD Form 1391, Military Construction Project Data, and
     supporting documentation for each of the four projects listed in the table. During
     our limited review of the four projects, we noted that all host nation funding
     alternatives used to satisfy the requirement were not considered. Each DD Form
     1391 contained a statement that the project was ineligible for the JFIP funding
     because the project would add to the fuel storage capacity at the activity
     submitting the project. However, the DD Forms 1391 for the four projects did not
     mention consideration of the Japanese relocation funding process when evaluating
     host nation funding alternatives. A discussion with United States Forces Japan
     personnel responsible for evaluating the use of host nation funding stated that the
     relocation funding process was considered for each of the four projects.
     However, documentation was not prepared to support the evaluation of the
     relocation funding process as a viable alternative for each of the four projects.


Summary
     DLA has approved approximately $107 million in MILCON projects to construct
     bulk fuel storage tanks at Misawa Air Force Base, Yokota Air Force Base, and
     Iwakuni Marine Corps Air Station. The Service Components and United States
     Forces Japan did not document that the use of the host nation relocation program
     was considered. However, those projects are no longer viable candidates for the
     host nation relocation funding process because of the lengthy approval process.
     The supporting economic analysis for any overseas MILCON project should
     clearly demonstrate that host nation funding has been considered and pursued to
     reasonable extents.



                                          5
Management Comments on the Finding
    The Commander in Chief, U.S. Pacific Command stated that he had reviewed the
    draft report and concurred with the finding.



Recommendation, Management Comments, and Audit
Response
    We recommend that the Commander in Chief, U.S. Pacific Command; the
    Commander, United States Forces Japan; and the applicable Service
    Components establish policy to require that future military construction
    projects in Japan consider all funding options and appropriately document
    the process in the project files.

    Management Comments. The U.S. Pacific Command did not address the
    recommendation in its formal response, but provided the following additional
    comments to further clarify its position.
               Management concurs with the finding and recommendation.
               Corrective action will be to establish a policy to require that all future
               military construction projects in Japan consider all funding options and
               appropriately document the process in project files. Specifically,
               USCINCPACINST 4020.5R, CH 4, paragraph 7 will be revised to
               direct proponents to fully document, in a formal statement, all attempts
               to secure host-nation support for a project through all available host-
               nation support mechanisms (for Japan that would include the Facilities
               Improvement Program and the Relocation Program) and document the
               outcome of attempts at securing host-nation support.                  The
               USCINCPACINST 4020.5R will require that should attempts fail,
               documented statements must clearly demonstrate why support was
               unavailable, impractical, unfeasible or uneconomical. Estimated
               completion date is June 2001.

    Audit Response. The applicable Service Components are now required to submit
    formal documentation of attempts to obtain host-nation support for military
    construction projects in the Pacific to the U.S. Pacific Command for review and
    validation. Therefore, we consider the additional comments from the U.S. Pacific
    Command as fully responsive to the intent of the recommendation and no
    additional comments are required.




                                              6
Appendix A. Audit Process

Scope
    We reviewed DoD guidance and made on-site visits to assess the implementation
    of the guidance. We reviewed documentation used to support current MILCON
    projects to construct bulk fuel storage tanks at Yokota AFB, Misawa AFB and
    Iwakuni MCAS. Additionally, we reviewed the methods used to prepare
    supporting documentation for MILCON project requests.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the achievement of the following goal, subordinate goal, and performance
    measure:

    FY 2000 DoD Corporate Level Goal: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting the
    Revolution in Military Affairs, and reengineer the Department to achieve a 21st
    century infrastructure. (00-DoD-2). FY 2000 Subordinate Performance Goal
    2.3: Streamline the DoD infrastructure by redesigning the Department’s support
    structure and pursuing business practice reforms. (00-DoD-2.3). FY 2000
    Performance Measure 2.3.1: Percentage of the DoD Budget Spent on
    Infrastructure. (00-DoD-2.3.1).

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.



Methodology
    Audit Type, Dates, and Standards. This economy and efficiency audit was
    performed from June 1999 through January 2000, in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary. We did not use computer-processed data to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                         7
Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over bulk fuel storage MILCON projects.
    Specifically, we reviewed management controls over the review and validation
    process for bulk fuel storage MILCON project requirements.
    Adequacy of Management Controls. We identified a material management
    control weakness for bulk fuel storage MILCON projects in Japan. The U.S.
    Pacific Command management controls were not adequate to ensure that planners
    and approving officials fully considered and pursued all funding alternatives,
    especially all forms of host nation support. The recommendation, if implemented
    will require the documentation of the funding pursuit process. A copy of the
    report will be provided to the senior official responsible for management controls
    in the office of the U.S. Pacific Command.



Prior Coverage
    No prior coverage has been conducted on bulk fuel storage infrastructure in Japan
    during the last 5 years.




                                        8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Director, Army Petroleum Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Pacific Command
  Commander, United States Forces Japan

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Joint Staff

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
National Security and International Affairs Division
      Technical Information Center




                                            9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          10
U.S. Pacific Command Comments




                    11
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Gary R. Padgett
David L. Spargo
Bridgett K. Downs
